                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 
               \




                     EPA Needs to Update Its
                     Pesticide and Chemical
                     Enforcement Penalty
                     Policies and Practices
                     Report No. 13-P-0431               September 26, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors: 	                              Ganesa Curley
                                                    Jerri Dorsey
                                                    Jeffrey Harris
                                                    Lauretta A. Joseph
                                                    Calvin Lin
                                                    Steve Weber




Abbreviations

EPA             U.S. Environmental Protection Agency
ERP             Enforcement Response Policy
ERPP            Enforcement Response and Penalty Policy
FIFRA           Federal Insecticide, Fungicide, and Rodenticide Act
FY              Fiscal Year
OECA            Office of Enforcement and Compliance Assurance
OIG             Office of Inspector General
PCB             Polychlorinated Biphenyls
TSCA            Toxic Substances Control Act


Cover photo:	     A farmer mixes herbicide prior to application; the farmer wears complete
                  protection while using the chemicals. (U.S. Department of Agriculture’s
                  National Resources Conservation Service photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                        write:   EPA Inspector General Hotline
  phone:     1-888-546-8740                                      1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                        Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                  Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               13-P-0431
                                                                                                     September 26, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              EPA Needs to Update Its Pesticide and Chemical
                                    Enforcement Penalty Policies and Practices
The purpose of this review
was to evaluate how the
U.S. Environmental Protection        What We Found
Agency’s (EPA’s) Federal
Insecticide, Fungicide, and         We found that EPA regions differed in how they documented decisions and
Rodenticide Act (FIFRA) and         justified penalties related to FIFRA and TSCA enforcement penalty reductions.
Toxic Substances Control Act        EPA regions generally did not consistently determine and document reductions in
(TSCA) enforcement tools            proposed penalties based on good faith of the violators, and in some regions
achieve intended outcomes;          reductions appeared automatic without adequate justification. The lack of
and whether penalty                 adequate guidance for determining good faith reductions and supporting
negotiations are managed to         documentation for good faith reductions creates a risk that violators may not be
protect human health and the        treated equitably. In addition, EPA may be losing opportunities to fully collect all
environment. This briefing          penalties due.
report contains findings and
recommendations related to          We found that the EPA lacks a sufficient policy to address violators who are
FIFRA and TSCA good faith           unable to pay FIFRA and TSCA penalties. The current “ability to pay” model and
reductions and ability to pay       policy are limited to cases where an individual may not have the cash to pay a
penalties. FIFRA regulates the      penalty. However, no guidance exists for applying non-monetary penalty
distribution, sale and use of       alternatives such as public service for FIFRA and TSCA inability to pay cases
pesticides. TSCA provides the       when cash is not available to pay a penalty. Also, training for enforcement staff
EPA with authority to require       needs to be updated to include more guidance on ability to pay cases. Therefore
reporting, recordkeeping and        EPA’s enforcement actions for FIFRA and TSCA ability to pay cases may be
testing requirements, and           limited by its outdated policy, model and training, which could impact the regions’
restrictions to chemical            consistent handling of the growing number of ability to pay claims being received
substances and mixtures.            from individuals.

This report addresses the            Recommendations and Planned Corrective Actions
following EPA theme:
                                    We recommend that the EPA provide adequate guidance for determining a good
  Taking action on toxics and      faith reduction, develop a systematic approach to ensure that justifications for
   chemical safety.                 good faith reductions are documented, revise the EPA’s ability to pay penalty
                                    policy and evaluate the individual violator model, and provide regional staff with
                                    updated training for case development.

For further information,            The Office of Enforcement and Compliance Assurance agreed with two of our
contact our public affairs office   five recommendations and provided alternative actions that meet the intent of the
at (202) 566-2391.                  remaining recommendations. All recommendations are resolved and open with
                                    corrective actions underway. No further response to this report is required.
The full report is at:
www.epa.gov/oig/reports/2013/
20130926-13-P-0431.pdf
                            UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                         WASHINGTON, D.C. 20460



                                                                                     THE INSPECTOR GENERAL




                                           September 26, 2013

MEMORANDUM

SUBJECT:	 EPA Needs to Update Its Pesticide and Chemical Enforcement Penalty
          Policies and Practices
          Report No. 13-P-0431

FROM:	         Arthur A. Elkins Jr.

TO:	           Cynthia Giles, Assistant Administrator
               Office of Enforcement and Compliance Assurance

This is a report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

Action Required

You are not required to provide a written response to this final report because you provided agreed-to
corrective actions and planned completion dates for the report recommendations. The OIG may make
periodic inquiries on your progress in implementing these corrective actions. Should you choose to
provide a final response, we will post your response on the OIG’s public website, along with our
memorandum commenting on your response. You should provide your response as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended.

We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Assistant Inspector General
for Program Evaluation Carolyn Copper at (202) 566-0829 or copper.carolyn@epa.gov; or Acting
Director for Toxics, Chemical Management, and Pollution Prevention Evaluations Jerri Dorsey at
(919) 541-3601 or dorsey.jerri@epa.gov.
                          Purpose
 
•	 The purpose of this review was to evaluate how
   U.S. Environmental Protection Agency (EPA) Federal 
   Insecticide, Fungicide, and Rodenticide Act (FIFRA) and 
   Toxic Substances Control Act (TSCA)) enforcement tools 
   achieve intended outcomes; and whether penalty 
   negotiations are managed to protect human health and 
   the environment. 

•	 This briefing contains findings and recommendations 
   related to FIFRA and TSCA:
   –	 Good faith reductions
   –	 Ability to pay 

                              13‐P‐0431                   1
                     Background
 
•	 FIFRA regulates the distribution, sale and use of 
   pesticides. 
•	 TSCA, which excludes pesticide regulation, provides the 
   EPA with authority to require reporting, recordkeeping 
   and testing requirements; and restrictions to chemical 
   substances and mixtures. 
•	 Enfforcing environmentall llaws is part off th
                                                he EPA’’s 
   mission to protect human health and the environment.




                          13‐P‐0431                       2
               Background
 
   Enfforcement Response Poliliciies (ERPs))
FIFRA and TSCA enforcement policies level the playing field 
b  providing
by     idi  fair
             f i  and
                    d consiistent enforcement
                                    f         off companies
                                                        i  
nationwide.
• FIFRA                                    • TSCA
  –	 To provide fair and                          –	 To assure that 
     equitable treatment of the                      penalties are:
     regulated community,
                community                                   i bl  and
                                                      • Equitable    d 
     including:                                         consistent.
      •	 Predictable enforcement                      • Eliminate economic 
         resp
            ponses.                                     incentives to violate. 
      •	 Fair penalty assessments.                    • Deter violations. 
      •	 Swift resolution of
 
         environmental problems.
 
      •	 Deterrence of future
 
         violations.

                                      13‐P‐0431                                   3
                    Background
             Lead
                d Paint
                    i  Disclosure
                        i l        Rule

                                     l
•	 This rule requires disclosure of known lead‐based paint 
   and/or lead‐based paint hazards by persons selling or leasing 
   housing constructed prior to 1978.
• Exposure to lead can contribute to elevated blood lead levels 
   for children living in properties where lead paint exists due to 
   lack of notification of possible existence of lead paint as 
   required by EP
                EPAA’ss Lead Rule. 
•	 According to the Centers for Disease Control and Prevention, 
   childhood lead poisoning is the most preventable 
   environmental disease among children under age 6.    6  Even low 
   levels of lead exposure can cause developmental problems 
   such as learning disabilities, decreased intelligence and 
   behavioral problems
               problems.
                               13‐P‐0431                           4
                   Methodology
 

•	 We selected a judgmental sample of 43 out of 290 FIFRA 
   and TSCA Fiscal Year (FY) 2010 closed enforcement cases.
                                                     cases  
   This involved 23 FIFRA cases and 20 TSCA cases. The      
   20 TSCA cases involved 13 Lead Disclosure and 7 PCB 
   (Polychlorinated Biphenyl) cases.
   – FIFRA enforcement penalties analyzed/addressed the sale 
     of unregistered pesticides and label violations.
     of	                                  violations
   – TSCA enforcement penalties analyzed/addressed the 
        p p  use and managgement of PCBs in schools, and  
     improper
     the implementation of the Lead Paint Disclosure Rule in 
     households. 


                            13‐P‐0431                           5
                       Methodology

                                gy 
•	 We reviewed FIFRA and TSCA statutes, as well as the 
   applilicabl
             ble enfforcementt poliliciies, processes and d crit
                                                               iteriia.
• We conducted interviews of Office of Enforcement and
 
   Compliance Assurance (OECA) staff (specifically,
                                               (specifically  the
                                                              the
 
   Waste and Chemical Enforcement Division and the Office 
   of Compliance); as well as enforcement staff from EPA 
   Regions 2, 4, 5, 7 and 10. 
•	 We performed our evaluation from June 2011 to May 
   2013 in i  accordance
                    d      with
                            ith generally ll  accepted
                                                    t d governmentt 
   auditing standards. Those standards require that we plan 
   and perform the evaluation to obtain sufficient and 
   appropriate evidence. 
                                  13‐P‐0431                               6
                  Finding

   Good
      d Faiith
             h Reducti
                 d	 ions Lacked
                            k d Support

•	 We found that EPA reggions differed in how theyy 
   documented and justified reduced penalties for sampled 
   FIFRA and TSCA enforcement cases. 
•	 Specifically, regions in general did not sufficiently document
 
   and/or justify good faith reductions to proposed penalties. 
• Furthermore,
   Furthermore  the agency has not provided regions,
                                                  regions  who 
   administer the enforcement process, guidance or policies 
   that adequately delineate the processes to document the 
   reduction of a penalty,  establish the appropriate level of 
   reduction for good faith, and assure that the reductions are 
   in line with behavior of the respondent.  
   in	

                              13‐P‐0431                          7
                               Finding
 
  Good Faith Reductions Lacked Support (cont.)
 
•	 Documentation within case files generally did not clearly delineate 
    h  and
   why   d how
           h  reductions
                 d ti  forf  good d ffaith
                                       ith were determined.
                                                d t     i d 
        •	 One region used nothing more than a simple statement for 
           justification. For example one region wrote, “…A 30% reduction is 
           recommended based on resp    pondent’s coop
                                                     peration and good faith 
           efforts to comply.”
        •	 Another regional justification stated, “…We are also giving the 20% 
           reduction for good faith….”
•	 EPA policy,
        policy  states: “	…In
                           In all instances,
                                  instances  the facts and rationale 
   justifying penalty reduction must be recorded in the case file and 
   included in any memoranda accompanying settlement.”                  
   (A Framework for Statute‐Specific Approaches to Penalty 
   Assessment: Implementing EPA’s Policy on Civil Penalties,   
   February 16, 1984)
•	 Without adequate documentation to justify reductions, there is no 
   assurance that reduction decisions are consistent across like
like 
   violators.

                                   13‐P‐0431                                 8
       Conclusion/Recommendations

          Good d Faith
                     h Red
                         ductions

We concluded that the lack of adequate guidance for 
determining good faith reductions and adequate 
documentation for good faith reductions creates a risk 
that violators mayy not be treated eq
                                    quitablyy. In addition, 
EPA may be losing opportunities to fully collect all 
penalties due.
Recommend
        datiions:
We recommend that the Assistant Administrator for Enforcement and 
Compliance Assurance:
      P id  guidance
  1.	 Provide   id      for
                        f  determining
                            d    i i  good d faith
                                             f i h reductions.
                                                     d i       
  2.	 Develop an approach to ensure justifications for good faith 
      reductions are adequately documented. 


                              13‐P‐0431                              9
             Conclusion/Recommendations
              G d Faith
              Good  F ith Reductions
                          R d ti  (cont.)

Agency Response and OIG Evaluation
Agency Response to Recommendation 1:
   The agency did not concur with recommendation 1 to update guidance for determining 
   good d ffaith
             i h red
                   ductiions. B   d on di
                              Based    discussiions with
                                                     i h th
                                                          he agency on th
                                                                        h e  d  f  report, iit was 
                                                                             draft
   agreed that the corrective actions to remedy recommendation 2, the re‐issuance of 
   GM‐88 – “Documenting Penalty Calculations and Justifications in EPA Enforcement 
   Actions” – will also address the condition of inadequate guidance. GM‐88 will augment 
   the current FIFRA and TSCA Enforcement Response Penalty Policies (ERPPs). The regions 
   will utilize both the ERPs and GM‐88 as guidance to determine and support reductions 
   to penalties for good faith. 


OIG Evaluation:
   The agency’s corrective actions address the intent of the recommendation. Therefore, 
   th  OIG considers
   the         id  this
                     thi  recommendation
                                    d ti  tto b
                                              be resolved.
                                                      l d

                                            13‐P‐0431                                           10
         Conclusion/Recommendations

         Goodd Faith
                   h Red
                       ductions (cont.))


Agency Response and OIG Evaluation (cont.)
Aggencyy Resp
            ponse to Recommendation 2: 

   The agency concurs with recommendation 2 and provided a planned corrective action 
   plan and a completion date.


OIG Evaluation: 
   We concur with this action. The agency provided a corrective action plan and 
   completion date for this action. Therefore, the OIG considers this recommendation to 
   be resolved.




                                        13‐P‐0431                                          11
                   Finding
 
   Challenges
    h ll 	    Exist
                i  for Ability
                        bili  to Pay Cases
We found that the EPA
                    EPA’ss enforcement actions for FIFRA and
                                                         and
 
TSCA ability to pay cases may be limited by an outdated 
policy, model and training.
•	 EPA’s ERPP does not prescribe alternatives (such as public 
   service and payment plans) when a penalty cannot be 
   paid. 
   –	 Although alternatives are allowed, the current lead‐based paint 
      disclosure ERPP only provides guidance on penalty reductions.  
      It does not include when and how alternatives can be used. 
   –	 Consequently, if EPA does not apply a non‐monetary alternative 
      form of payment when a violator is unable to pay, enforcement 
      against noncompliance is absent. 


                                13‐P‐0431                            12
                            Finding
 
  Challenges Exist for Ability to Pay Cases (cont.)

 EPA
  EPA’ss “INDIPAY”
          INDIPAY  economic model is limited in its 
  ability to help teams evaluate claims for FIFRA/TSCA 
  ability to pay cases. 
   – INDIPAY is intended to evaluate individual taxpayers' 
     claims of inabilityy to afford penalties,, clean‐up
                                                       p costs or 
     compliance costs. 
   – Currently, the model does not assess an individual’s 
     assets. 
   – An updated model could help improve the accuracy of 
     the agency’ss ability to pay claims.

                               13‐P‐0431                             13
                          Finding
 
  Challenges Exist for Ability to Pay Cases (cont.)

 EPA does not pr
               pro
                 ovide
                   ide adequate
                       adeq ate gguidance
                                   idance or training on
                                                      on
 
 evaluating ability to pay claims for case teams.

   – OECA does not currently provide any case development 
     training.
   – The EPA guidance is inadequate for case teams or financial 
     analysts on how to handle claims for individuals, except for 
     under the Superfund program.
   – Lack of adequate guidance and training could impact the 
     regions’ consistent handling of the growing number of 
     ability to pay claims being received from individuals.

                                               individuals  

                             13‐P‐0431                          14
          Conclusion/Recommendations

                  Abili
                   bility to Pay

EPA needs to update its policy to better address violators who are 
unabl
   ble to pay penalties.
                  lti
Recommendations:
We rrecommend
     ecommend that
                 that the Assistant
                          Assistant Administrator
                                    Administrator for Enforcement
                                                      Enforcement 
and Compliance Assurance:
  3.	  Update the existing Lead‐Based Paint Disclosure ERPP to 
        include guidance on:
         a. How to evaluate ability to pay claims for individuals, and
         b. When and how to apply alternatives such as payment plans and 
            public service to ability to pay cases.
   4.	 Evaluate the INDIPAY
   4.               INDIPAY economic model to determine 
       whether revisions would improve applicability to lead 
       paint disclosure cases with individual violators.
   5.	 Provide regional staff with updated training for case 
       devellopment, includi	  evalluatiion off abili
                      i l ding                   bility to pay claims.
                                                                l i
                                   13‐P‐0431                                15
               Conclusion/Recommendations

                    Abili
                      bility to Pay (cont.)

Agency Response and OIG EEvaluation
Agenc                      al ation
Agency Response to Recommendation 3: 
   The agency provided alternative actions in lieu of the OIG recommendation 3. The 
   agency recommended updating the 1986 ““Guidance
                                               Guidance on Determining a Violator's Ability 
   to Pay a Civil Penalty” guidance instead of the Lead‐Paint Disclosure ERPP.

  G Evaluation:
OIG
O     a ua o  
    We concur with the alternative corrective action provided by the agency. Therefore, the 
    OIG considers this recommendation to be resolved.




                                            13‐P‐0431                                          16
             Conclusion/Recommendations
                  Abili
                    bility to Pay (cont.)
Agency Response and OIG Evaluation (cont.)
Agency Response to Recommendation 4:
   The agency in its response advised that the INDIPAY model “is not suitable” for these 
   types of real estate fact‐specific analyses. However, the agency believes that it is not 
   necessary to update the INDIPAY model to address its limitations relating to the 
   valuation of real estate assets. Based on discussions with the agency, the agency has 
   agreed to update the 1986 “Guidance on Determining a Violator’s Ability to Pay a Civil 
   Penalty,” which it believes will have more signific

   Penalty,                                             ant impact across the agency than 
                                                significant
   updating the model.
 

OIG Evaluation: 
   We concur with the alternative corrective action provided by the agency. Therefore, the 
   OIG considers this recommendation to be resolved.




                                           13‐P‐0431                                       17
             Conclusion/Recommendations
                  Ability to Pay (cont.)
Agency Response and OIG Evaluation (cont.) 
Agency Response to Recommendation 5: 
   The agency concurs with recommendation 5 and provided a corrective action plan and 
   completion date. 

OIG Evaluation: 
   We concur with this action. The agency provided a corrective action plan and 
   completion date for this action. Therefore, the OIG considers this recommendation to 
   be resolved.




                                         13‐P‐0431                                         18
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1        Action Official             Date      Amount      Amount

     1        9     Provide guidance for determining good faith               O       Assistant Administrator for    9/30/13
                    reductions.                                                           Enforcement and
                                                                                       Compliance Assurance

     2        9     Develop an approach to ensure justifications for          O       Assistant Administrator for    9/30/13
                    good faith reductions are adequately documented.                      Enforcement and
                                                                                       Compliance Assurance

     3       15     Update the existing Lead-Based Paint Disclosure           O       Assistant Administrator for    6/30/14
                    ERPP to include:                                                      Enforcement and
                      a. How to evaluate ability to pay claims for                     Compliance Assurance
                         individuals, and
                      b. When and how to apply alternatives such as
                         payment plans and public service to ability to
                         pay cases.

     4       15     Evaluate the INDIPAY economic model to                    O       Assistant Administrator for    6/30/14
                    determine whether revisions would improve                             Enforcement and
                    applicability to lead paint disclosure cases with                  Compliance Assurance
                    individual violators.

     5       15     Provide regional staff with updated training for case     O       Assistant Administrator for    9/30/14
                    development, including evaluation of ability to pay                   Enforcement and
                    claims.                                                            Compliance Assurance




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0431                                                                                                                                          19
                                                                                  Appendix A

                  Agency Response to Draft Report
                                         July 3, 2013
MEMORANDUM

SUBJECT:      Response to the Office of Inspector General Draft Report: “EPA Needs to Update
              Its Pesticide and Chemical Enforcement Penalty Policies and Practices,” dated
              June 6, 2013, Report No. OPE-FY11-0018

FROM:         Cynthia Giles
              Assistant Administrator

TO:           Carolyn Copper
              Assistant Inspector General
              Office of Program Evaluation

Thank you for the opportunity to respond to the draft findings and recommendations presented in
the Office of Inspector General (OIG) Draft Report, “EPA Needs to Update Its Pesticide and
Chemical Enforcement Penalty Policies and Practices” (Report). Following is a summary of
comments from the Office of Enforcement and Compliance Assurance (OECA), followed by
OECA’s position on each of the Report’s recommendations. For those Report recommendations
with which OECA agrees, we propose corrective actions and estimated completion dates. For
those Report recommendations with which OECA does not agree, we explain our position and
either propose alternatives to those recommendations or, in the case of Recommendation 1, we
propose that no further action is needed.

Summary Comments

The TSCA cases addressed in OIG’s Report involved the Lead-Based Paint Disclosure Rule. It is
important to note that the focus of the lead enforcement program has shifted away from lead
disclosure cases and toward renovation, repair, and painting (RRP) cases. As noted in the 2014
National Program Managers’ Guidance, 95 percent of lead enforcement resources should be
allocated to RRP enforcement. With this shift in focus, OECA has worked with the regions to
ensure national consistency in penalty calculations and documentation.
 OIG Response: The OIG did not solely review Lead-Based Paint Disclosure Rule cases.
 The OIG reviewed 43 cases, of which 23 were FIFRA cases, seven were TSCA PCB cases,
 and 13 were TSCA Lead-Based Paint Disclosure Rule cases. The results of the OIG review
 disclosed that the lack of guidance and supporting documentation for good faith reductions
 pertained to both FIFRA and TSCA cases. Recommendations 1 and 2 relate to both FIFRA
 and TSCA policies.




13-P-0431                                                                                     20
Recommendation 1: OECA disagrees with the OIG’s recommendation that OECA update the
criteria in the Lead-Based Paint Disclosure Rule Enforcement Response and Penalty Policy (LBP
Disclosure ERPP) for determining good-faith reductions. While the Report states that
documentation for good-faith reductions in case files was inadequate, the Report does not
identify any specific deficiencies with regard to the criteria themselves. Therefore, rather than
revising the guidance related to criteria for good-faith reductions in LBP Disclosure Rule cases,
which are increasingly rare, OECA will continue to work with the regions on national
consistency in RRP cases.

 OIG Response: The OIG met with the agency to discuss the draft findings and
 recommendations. Based on discussions with the agency, it was agreed that the corrective
 actions to remedy recommendation 2, the re-issuance of GM-88, “Documenting Penalty
 Calculations and Justifications in EPA Enforcement Actions,” will also address the
 condition of lack of guidance. GM-88 will augment the current FIFRA and TSCA ERPPs.
 The regions will utilize both the ERPPs and GM-88 as guidance to determine and support
 reductions to penalties for good faith. The agency’s corrective actions address the intent of
 the recommendation. Therefore, the OIG considers this recommendation to be resolved.

Recommendation 2: In order to ensure justifications for good faith reductions are adequately
documented in case files, OECA will re-circulate GM-88, “Documenting Penalty Calculations
and Justifications in EPA Enforcement Actions,” to Enforcement Directors and Regional
Counsel.

 OIG Response: We concur with the corrective action provided by the agency and thus
 consider this recommendation to be resolved.

Recommendation 3.a: In its Report, the OIG found that “[t]here is no EPA guidance for case
teams or financial analysts on how to handle claims for individuals, except for under the
Superfund program.” See Report at 13. To address this finding, the OIG recommends that OECA
update the existing LBP Disclosure ERPP to include guidance on how to evaluate ability-to-pay
claims for individuals.

OECA disagrees with OIG’s statement that there is no EPA guidance on how to handle claims
for individuals. In addition to the 1986 “Guidance on Determining a Violator’s Ability to Pay a
Civil Penalty,” the EPA developed the INDIPAY model specifically for the purpose of assisting
case teams in evaluating ability to pay claims by individuals. OECA does agree, however, that
additional guidance may be needed on whether and the extent to which the EPA should assess a
civil penalty where the INDIPAY model assesses an individual’s ability to pay as zero.

 OIG Response: The OIG revised the final report to more accurately reflect the above
 statements regarding the lack of guidance. The OIG concurs that additional guidance is
 needed that adequately addresses the extent to which the EPA should assess a civil penalty
 where the INDIPAY model assesses an individual’s ability to pay as zero.




13-P-0431                                                                                        21
OECA plans to update the 1986 “Guidance on Determining a Violator’s Ability to Pay a Civil
Penalty.” As part of that effort, OECA will consider whether more guidance is needed on (1)
how to evaluate ability-to-pay claims in enforcement cases against individuals, and (2) when to
allow a respondent/defendant to pay a civil penalty in installments and how best to structure
settlement agreements with delayed payment schedules.
    OIG Response: We concur with the alternative corrective action provided by the agency and
    thus consider this recommendation to be resolved.

Recommendation 3.b: After finding that EPA’s LBP Disclosure ERPP “does not prescribe
alternatives (such as public service and payment plans),” the OIG recommends that OECA
update the LBP Disclosure ERPP “to include when and how to apply alternatives such as
payment plans and public service to ability to pay cases.” (See OIG Draft Report at 11 and 15.)

This OIG recommendation appears to be drawn from references in the EPA’s 1984 “A
Framework for Statute-Specific Approaches to Penalty Assessments: Implementing EPA’s
Policy on Civil Penalties” (Framework or “GM-22”) to the Agency’s consideration of “a delayed
payment schedule” or “non-monetary alternatives, such as public service activities” when a
violator cannot afford to pay a civil penalty. (See Framework at 23.)

Delayed Payment Schedules

OECA plans to update the 1986 “Guidance on Determining a Violator’s Ability to Pay a Civil
Penalty.” As part of that effort, OECA will consider whether more guidance is needed on (1)
how to evaluate ability-to-pay claims in enforcement cases against individuals, and (2) when to
allow a respondent/defendant to pay a civil penalty in installments and how best to structure
settlement agreements with delayed payment schedules.

Non-monetary Alternatives

Since issuing the 1984 Framework, the EPA issued the 1998 Supplemental Environmental
Projects (SEP) Policy. A SEP is a beneficial environmental project a respondent/defendant
agrees to undertake as part of an enforcement settlement. The project must be one that the
respondent/ defendant is not already required to perform. As a matter of fiscal law, SEPs must
have a nexus to the underlying violation and cannot augment the EPA’s or another agency’s
appropriations. Provided a project meets the conditions of the SEP Policy, the EPA may consider
a respondent/defendant’s agreement to perform a SEP as a factor in determining the civil penalty
to be assessed. Furthermore, EPA has provided specific guidance on the SEPs that may be
appropriate in cases involving violations of lead-based paint rules under TSCA.1

Finally, TSCA Section 16(a)(2)(C), 15 U.S.C. § 2615(a)(2)(C), authorizes the Administrator to
compromise, modify or remit, with or without condition, any civil penalty that may be imposed


1
 See August 2010 “Consolidated Enforcement Response and Penalty Policy for the Pre-Renovation Education Rule;
Renovation, Repair and Painting Rule; and Lead-Based Paint Activities Rule” (LBP Consolidated ERPP) at 26 and
Appendix D. 


13-P-0431                                                                                                 22
under this section. The EPA has issued policy on implementing this subsection.2 As discussed in
the August 2010 LBP Consolidated ERPP, an example of this policy would be the remittance of
a portion of the unadjusted gravity-based penalty developed for violations of the RRP rule in
consideration of the violator’s acceptance of the suspension or revocation of the its LBP
certification or training authorization. According to the LBP Consolidated ERPP, the violator
would still be liable for a penalty for any economic benefit accrued as a result of the violation(s).
In addition, the terms of the remittance and suspension or revocation must be incorporated in a
Compliance Agreement and Final Order. Finally, the LBP Consolidated ERPP notes that TSCA
Section 16(a)(2)(C) may also be used to remit penalties if respondent completes projects similar
to those implemented under the SEP Policy.

Rather than revise the LBP Disclosure ERPP, OECA proposes to evaluate whether additional
guidance is needed to clarify whether “non-monetary alternatives, such as public service
activities,” must meet the SEP Policy.

    OIG Response: We concur with the alternative corrective action provided by the agency and
    thus consider this recommendation to be resolved.

Recommendation 4: In support of Recommendation 4 -- that OECA evaluate the INDIPAY
model “to determine whether revisions would improve the applicability to lead disclosure cases
with individual violators” -- the OIG found that “[c]urrently, the model does not assess an
individual’s assets.” We disagree with this finding and the OIG’s recommendation that changes
to INDIPAY are necessary to “assess an individual’s assets.” Contrary to the OIG’s draft finding,
the INDIPAY model does take into account an individual’s assets in assessing an individual’s
ability to pay based on information provided by the respondent/defendant. The reason the model
is not equipped to provide the user with the assessed value of an individual’s specific assets is
that such determinations are very case-specific and based on market value. For example, the
market value of real estate is based on an evaluation of the property (e.g., square footage,
purpose, condition, improvements) and an assessment of its value in the market in which it is
located at a particular point in time.

Because the model is not suitable for this kind of fact-specific analysis, OECA proposes that no
further action is needed to update the INDIPAY model. Where appropriate in a particular case,
the EPA may engage an expert to assess the value of a respondent/defendant’s assets. If EPA
decides to expend resources in a given case to estimate the value of specific assets, such values
can then be loaded into the model to fine-tune the ability-to-pay analysis of a particular
individual.

OECA will consider whether more guidance is needed on how to evaluate ability-to-pay claims
in enforcement cases against individuals, as part of OECA’s update of the Agency’s 1986
“Guidance on Determining a Violator’s Ability to Pay a Civil Penalty.”




2
 See Appendix C, TSCA Enforcement Policy and Guidance Documents; Memorandum, “Settlement with
Conditions,” A.E. Conroy II (November 16, 1983).


13-P-0431                                                                                          23
 OIG Response: As noted by the agency in its response, the current model “is not suitable”
 for these types of fact-specific analysis. However, the agency believes that it is not
 necessary to update the INDIPAY model to address its limitations relating to the valuation
 of real estate assets. Based on discussions with the agency, the agency has agreed to update
 the 1986 “Guidance on Determining a Violator’s Ability to Pay a Civil Penalty,” which it
 believes will have more impact than updating the model. We concur with the alternative
 corrective action provided by the agency and thus consider this recommendation to be
 resolved.


Recommendation 5: As indicated, OECA plans to update the 1986 “Guidance on Determining
a Violator’s Ability to Pay a Civil Penalty.” Once that updated guidance is issued, OECA will
provide training on evaluating a violator’s ability to pay a civil penalty to reflect the new
guidance.

OIG Response: We concur with the corrective action provided by the agency and thus
consider this recommendation to be resolved.


In Agreement
 No. Recommendation                   High-Level Intended             Estimated Completion
                                      Corrective Action(s)            by Quarter and FY
 2    Develop a systematic            OECA will re-circulate to the   4th Quarter of FY 2013
      approach to ensure              Enforcement Directors and
      justifications for good faith   Regional Counsel existing
      reductions are adequately       guidance on the documentation
      documented.                     of penalties in case files. See
                                      memorandum dated August 9,
                                      1990, “Documenting Penalty
                                      Calculations and Justifications
                                      in EPA Enforcement Actions,”
                                      from the former Assistant
                                      Administrator for
                                      Enforcement, James M. Strock.

 5    Provide regional staff with     OECA plans to update the            4th Quarter of FY 2014
      updated training for case       1986 “Guidance on
      development, including          Determining a Violator’s
      evaluation of ability to pay    Ability to Pay a Civil Penalty.”
      claims.                         Once that updated guidance is
                                      issued, OECA will provide
                                      training on evaluating a
                                      violator’s ability to pay a civil
                                      penalty to reflect the new
                                      guidance.



13-P-0431                                                                                          24
Not in Agreement
 No. Recommendation                Agency Explanation/Response         Proposed Alternative
                                                                       Recommendation
 1    Update criteria for          The criteria for determining        No further action
      determining good faith       good faith reductions are sound     proposed.
      reductions.                  and readily accessible in the
                                   Lead-Based Paint Disclosure
                                   Rule ERPP.
 3.a. Update Lead-Based Paint      The issue of how to evaluate        OECA plans to update
      Disclosure ERPP to           ability to pay claims for           the 1986 “Guidance on
      include guidance on how      individuals is not limited to the   Determining a Violator’s
      to evaluate ability to pay   enforcement of TSCA’s Lead-         Ability to Pay a Civil
      for individuals.             Based Paint Disclosure Rule.        Penalty.” As part of that
                                   Rather, whether a violator can      effort, OECA will
                                   afford to pay a civil penalty in    consider whether more
                                   addition to correcting              guidance is needed on (1)
                                   noncompliance can arise in the      how to evaluate ability-
                                   enforcement of other                to-pay claims in
                                   environmental requirements          enforcement cases
                                   under TSCA and other statutes.      against individuals, and
                                   Because this issue is cross-        (2) when to allow a
                                   media in nature, it should be       respondent/defendant to
                                   addressed on a cross-media          pay a civil penalty in
                                   basis in lieu of revising the       installments and how best
                                   Lead-Based Paint Disclosure         to structure settlement
                                   Rule ERPP.                          agreements with delayed
                                                                       payment schedules.

                                                                       3rd Quarter of FY 2014
 3.b. Update Lead-Based Paint      The issues of when to consider      OECA plans to update
      Disclosure ERPP to           and how to structure delayed        the 1986 “Guidance on
      include guidance on when     penalty payments are not            Determining a Violator’s
      and how to apply payment     limited to lead-based paint         Ability to Pay a Civil
      plans in ability to pay      disclosure cases but can arise      Penalty.” As part of that
      cases.                       regardless of which statutory       effort, OECA will
                                   penalty authority is being          consider whether more
                                   enforced.                           guidance is needed on (1)
                                                                       how to evaluate ability-
                                                                       to-pay claims in
                                                                       enforcement cases
                                                                       against individuals, and
                                                                       (2) when to allow a
                                                                       respondent/defendant to
                                                                       pay a civil penalty in
                                                                       installments and how best
                                                                       to structure settlement


13-P-0431                                                                                     25
                                                                         agreements with delayed
                                                                         payment schedules.

                                                                         3rd Quarter of FY 2014
 3.b. Update Lead-Based Paint        This OIG recommendation             Rather than revise the
      Disclosure ERPP to             appears to be drawn from a          Lead-Based Paint
      include guidance on when       reference in EPA’s 1984 “A          Disclosure ERPP, OECA
      and how to apply               Framework for Statute-Specific      proposes to evaluate
      “alternatives…such as          Approaches to Penalty               whether additional cross-
      public service in ability to   Assessments: Implementing           media guidance is needed
      pay cases.”                    EPA’s Policy on Civil               to clarify whether “non-
                                     Penalties” (Framework) to           monetary alternatives,
                                     “non-monetary alternatives”         such as public service
                                     when a violator cannot afford to    activities” must meet the
                                     pay a civil penalty. (See           SEP Policy.
                                     Framework at page 23.)
                                                                         2nd Quarter of FY 2014
                                     In 1998, EPA issued the
                                     Supplemental Environmental
                                     Projects (SEP) Policy. A SEP is
                                     a beneficial environmental
                                     project a respondent/defendant
                                     agrees to undertake voluntarily
                                     as part of an enforcement
                                     settlement. The project must be
                                     one that the respondent/
                                     defendant is not already
                                     required to perform. As a matter
                                     of fiscal law, SEPs must have a
                                     nexus to the underlying
                                     violation and cannot augment
                                     EPA’s or another agency’s
                                     appropriations.
  4    Evaluate the INDIPAY          This recommendation is based        3rd Quarter of FY 2014
       economic model to             on the OIG’s draft finding that
       determine whether             “[c]urrently, the [INDIPAY]
       revisions would improve       model does not assess an
       applicability to lead paint   individual’s assets.” We
       disclosure cases with         disagree with this finding and
       individual violators.         the OIG’s recommendation that
                                     changes to INDIPAY are
                                     necessary to “assess an
                                     individual’s assets.” The
                                     INDIPAY model does take into
                                     account an individual’s assets in
                                     assessing an individual’s ability



13-P-0431                                                                                         26
                                   to pay based on information
                                   provided by the
                                   respondent/defendant. The
                                   model is not the appropriate tool
                                   for assigning a dollar value to
                                   an individual’s specific assets,
                                   which is fact-specific and based
                                   on market value.

                                   OECA will consider whether
                                   more guidance is needed on
                                   how to evaluate ability-to-pay
                                   claims in enforcement cases
                                   against individuals, as part of
                                   OECA’s update of the Agency’s
                                   1986 “Guidance on
                                   Determining a Violator’s
                                   Ability to Pay a Civil Penalty.”
                                   See response to
                                   Recommendation 3.b.

Contact Information

If you have any questions or concerns regarding this response, please contact the OECA Audit
Liaison, Gwendolyn Spriggs, at 202-564-2439.

Attachment

cc: 	   Lawrence Starfield, OECA
        Susan Shinkman, OECA/OCE
        Pam Mazakas, OECA/OCE
        Rosemarie Kelley, OECA/OCE
        Andrew Stewart, OECA/OCE
        Susan O’Keefe, OECA/OCE
        Caroline Makepeace, OECA/OCE
        Lauren Kabler, OECA/OCE
        Gwendolyn Spriggs, OECA/OAP




13-P-0431                                                                                      27
                                                                              Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Enforcement and Compliance Assurance
Assistant Administrator for Chemical Safety and Pollution Prevention
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Information
Principal Deputy Assistant Administrator for Enforcement and Compliance Assurance
Deputy Assistant Administrator for Chemical Safety and Pollution Prevention
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-Up Coordinator, Office of Chemical Safety and Pollution Prevention




13-P-0431                                                                             28
